           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



      ADMINISTRATIVE COSTS
  CLAIMED BY THE SOUTH DAKOTA
    DISABILITY DETERMINATION
             SERVICES


 February 2005      A-15-03-13060




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                    SOCIAL SECURITY
MEMORANDUM
Date:   February 25, 2005                                                   Refer To:

To:     James Everett
        Regional Commissioner
          Denver

From:   Inspector General

Subject: Administrative Costs Claimed by the South Dakota Disability Determination Services
        (A-15-03-13060)

        The attached final report presents the results of our audit. Our objectives were to:

        • determine whether the aggregate of the Social Security Administration (SSA) funds
          drawn down agreed with total expenditures for Fiscal Years 2000 through 2002;
        • determine whether costs, claimed by the South Dakota Disability Determination
          Services on its State Agency Report of Obligations for SSA Disability Programs for
          the period October 1, 1999 through September 30, 2002, were allowable and
          properly allocated;
        • evaluate internal controls over the accounting and reporting of the administrative
          costs claimed, as well as the draw down of SSA funds; and
        • complete a limited general controls review.
        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steve Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                        S
                                                        Patrick P. O’Carroll, Jr.

        Attachment

        cc:
        Betty Oldencamp, Secretary, South Dakota Department of Human Services
        Dave Tschetter, Administrator, South Dakota Disability Determination Services
        Lenore Carlson, Associate Commissioner, for Office of Disability Determinations
        Jeff Hild, Associate Commissioner for Office of Financial Policy and Operations
        Candace Skurnik, Director, Audit Management and Liaison Staff
                                               Executive Summary
OBJECTIVES
Our objectives were to:

• determine whether the aggregate of the Social Security Administration (SSA) funds
   drawn down agreed with total expenditures for Fiscal Years 2000 through 2002;

• determine whether costs, claimed by the South Dakota Disability Determination
   Services (SD-DDS) on its State Agency Report of Obligations for SSA Disability
   Programs for the period October 1, 1999 through September 30, 2002, were
   allowable and properly allocated;

• evaluate internal controls over the accounting and reporting of the administrative
   costs claimed, as well as the draw down of SSA funds; and

• complete a limited general controls review.

BACKGROUND
Disability determinations under SSA’s Disability Insurance and Supplemental Security
Income programs are performed by Disability Determination Services (DDS) in each
State in accordance with Federal regulations. Each DDS is responsible for determining
claimants’ disabilities and ensuring that adequate evidence is available to support its
determinations. To assist in making proper disability determinations, each DDS is
authorized to purchase medical examinations, x-rays, and laboratory tests on a
consultative basis to supplement evidence obtained from the claimants’ physicians or
other treating sources. SSA reimburses DDSs 100 percent of allowable expenditures.

RESULTS OF REVIEW
SD-DDS generally complied with laws, regulations, policies, and procedures governing
the recording and reporting of expenditures and obligations. However, we identified
three issues related to consultative examinations (CE). Specifically, SD-DDS: (1) paid
$158,513 for CE fees in excess of its fee schedule; (2) paid physicians for unbilled
services and for preparing narrative reports that should have been included as part of
the examination; and (3) did not limit the amount paid for psychiatric examinations. We
also identified weaknesses in physical security that risk unauthorized access to
sensitive claims system data and/or damage to hardware and software.




Administrative Costs Claimed by the South Dakota DDS (A-15-03-13060)                      i
CONCLUSIONS AND RECOMMENDATIONS
Our review of administrative costs disclosed that SD-DDS needs to improve its
adherence to SSA’s policies and procedures for the purchase of CEs. In addition,
SD-DDS needs to improve the physical security of its computer room and ensure the
safety of its staff. In the body of this report we make several recommendations
regarding CE purchase costs, internal controls and systems security.

SSA COMMENTS
SSA’s Denver Regional Office generally agreed with our recommendations.

SOUTH DAKOTA DEPARTMENT OF HUMAN SERVICES COMMENTS
The South Dakota Department of Human Services (SD-DHS) agreed with three of the
seven recommendations directed toward the DDS. SD-DHS did not agree with two of
our recommendations and did not respond to two recommendations.

OIG RESPONSE

Due to limitations in the data file provided by SD-DDS, we could not substantiate all of
SD-DHS’ comments. As such, we revised one of our recommendations to have SSA
staff work with SD-DHS to determine the validity of the questioned costs and seek
reimbursement, if appropriate.




Administrative Costs Claimed by the South Dakota DDS (A-15-03-13060)                       ii
                                                                         Table of Contents
                                                                                                                          Page

INTRODUCTION............................................................................................................. 1

RESULTS OF REVIEW .................................................................................................. 3

Consultative Examination Payments ............................................................................... 3

   Payments Allowed....................................................................................................... 3

   Payments for Narrative Reports .................................................................................. 4

   Maximum Fee Payable................................................................................................ 5

Internal Controls .............................................................................................................. 6

General Controls ............................................................................................................. 6

   Access to SSA Data .................................................................................................... 7

   Emergency Evacuation Drills ...................................................................................... 8

CONCLUSIONS AND RECOMMENDATIONS............................................................... 9

APPENDICES

Appendix A – Acronyms

Appendix B – Scope and Methodology

Appendix C – Agency Comments

Appendix D – South Dakota Department of Human Services Comments

Appendix E – Sampling Methodology

Appendix F – Schedule of Obligations Reported, Questioned, and Allowed

Appendix G – OIG Contacts and Staff Acknowledgments




Administrative Costs Claimed by the South Dakota DDS (A-15-03-13060)
                                                                           Introduction
OBJECTIVES
Our objectives were to:

• determine whether the aggregate of the Social Security Administration (SSA) funds
      drawn down agreed with total expenditures for Fiscal Years (FY) 2000 through 2002;

• determine whether costs, claimed by the South Dakota Disability Determination
      Services (SD-DDS) on its State Agency Report of Obligations for SSA Disability
      Programs (Form SSA-4513) for the period October 1, 1999 through
      September 30, 2002, were allowable and properly allocated;

• evaluate internal controls over the accounting and reporting of the administrative
      costs claimed, as well as the draw down of SSA funds; and

• complete a limited general controls review.

BACKGROUND
The Disability Insurance (DI) program was established in 1956 under Title II of the
Social Security Act (Act). The program provides a benefit to wage earners and their
families in the event the wage earner becomes disabled. The Supplemental Security
Income (SSI) program was created as a result of the Social Security Amendments of
1972 with an effective date of January 1, 1974. SSI (Title XVI of the Act) provides a
nationally uniform program of income to financially needy individuals who are aged,
blind, and/or disabled.

SSA is primarily responsible for implementing policies governing the development of
disability claims under the DI and SSI programs. Disability determinations under both
DI and SSI are performed by Disability Determination Services (DDS) in each State, or
other responsible jurisdiction, according to Federal regulations.1 In carrying out its
obligation, each DDS is responsible for determining claimants’ disabilities and ensuring
that adequate evidence is available to support its determinations. To assist in making
proper disability determinations, each DDS is authorized to purchase consultative
medical examinations, x-rays and laboratory tests to supplement evidence obtained
from the claimants’ physicians or other treating sources. SSA pays the DDS for
100 percent of allowable expenditures.




1
    20 C.F.R. part 404, subpart Q, and part 416, subpart J (April 2003).


Administrative Costs Claimed by the South Dakota DDS (A-15-03-13060)                       1
Each year, SSA approves a DDS budget. Once approved, the DDS can withdraw
Federal funds through the Department of the Treasury’s (Treasury) Automated
Standard Application for Payments system. Cash drawn from the Treasury to pay for
program expenditures is to be drawn according to Federal regulations and in
accordance with intergovernmental agreements entered into by Treasury and the States
under the authority of the Cash Management Improvement Act.2 At the end of each
fiscal quarter, each DDS submits to SSA a Form SSA-4513 to account for program
disbursements and unliquidated obligations.

The South Dakota Department of Human Services (SD-DHS) is the parent agency for
the SD-DDS. Parent agencies, such as the SD-DHS, often provide administrative
services (such as accounting, purchasing, and personnel) to the State designated DDS.




2
    31 C.F.R. part 205 (May 2004); and Pub. L. No. 101-453 § 6503, 31 U.S.C. § 6503 (2004).


Administrative Costs Claimed by the South Dakota DDS (A-15-03-13060)                          2
                                                          Results of Review
SD-DDS generally complied with laws, regulations, policies, and procedures governing
the recording and reporting of expenditures and obligations. However, we identified
three issues related to consultative examinations (CE). Specifically, SD-DDS: (1) paid
$158,513 for CE fees in excess of its fee schedule; (2) paid physicians for unbilled
services and for preparing narrative reports that should have been included as part of
the examination; and (3) did not limit the amount paid for psychiatric examinations. We
also identified weaknesses in physical security that risk unauthorized access to
sensitive claims system data and/or damage to hardware and software.

CONSULTATIVE EXAMINATION PAYMENTS
Federal regulations stipulate the rate paid for CEs may not exceed the highest rate paid
by Federal or other agencies in the State for the same or similar type of service.3 In
addition, SSA’s Program Operations Manual System (POMS) states that the DDS will
consider its fee schedule as a maximum payment schedule.4 We determined only 39 of
the 97 CE transactions examined were paid in accordance with the SD-DDS fee
schedule. For the remaining 58 transactions, SD-DDS paid an amount in excess of its
fee schedule, may have paid for the same services twice, or failed to limit the number of
hours that could be billed for performing psychiatric examinations.

PAYMENTS ALLOWED

The SD-DDS fee schedule and South Dakota Administrative Rule 67:16:02 limit the
amount paid for CEs.5 The SD-DDS fee schedule establishes the amount paid for
performing CEs. However, South Dakota’s Administrative Rule establishes the fees
paid by agencies in the State for the same or similar type of service. Physicians were
paid in excess of the amount allowed by the SD-DDS fee schedule and Administrative
Rule for certain current procedural terminology (CPT) codes.6 The SD-DDS needs to
update its fee schedule to incorporate the higher payment amounts allowed under the
Administrative Rule.

CE purchases can be medical examinations, x-rays or laboratory procedures. Our
analysis of the CE data file showed that CE payments to physicians for medical
examinations exceeded the amount allowed by both the SD-DDS fee schedule and the
South Dakota Administrative Rule.



3
  20 C.F.R. § 404.1624.
4
  SSA, POMS DI 39545.210.
5
  The Administrative Rules are the State of South Dakota’s regulations. Rule 67:16:02 establishes
maximum payments for physicians’ services.
6
  The CPT code is a 5-digit code established by the American Medical Association, which simplifies the
reporting of services performed by physicians.


Administrative Costs Claimed by the South Dakota DDS (A-15-03-13060)                                     3
We analyzed 97 CE sample invoices and found there were 31 instances where
physicians were paid in excess of the amount authorized by the SD-DDS fee schedule.
We then electronically compared all 16,480 CE transactions for FYs 2000 through
2002 (by CPT Code) to the amounts allowed by the SD-DDS fee schedule and South
Dakota Administrative Rule 67:16:02. We identified 2,470 CE payments for medical
examinations that exceeded the maximum amount allowable by the fee schedule. The
excess payments amounted to $158,513 as follows:

                CE                                    Number of             Amount
  FY       Transactions        Amount Paid        Excessive Payments        Overpaid
 2000          3,537              $311,237                 513               $30,738
 2001          6,190              $516,189               1,016               $60,354
 2002          6,753              $599,923                 941               $67,421
 Total        16,480            $1,427,349               2,470              $158,513

SD-DDS did not have the necessary internal controls in place to ensure that its fee
schedule and the Administrative Rule were used to limit CE payments.

We contacted the Denver Regional Office (RO) to determine if SSA was aware that
payment for the CEs exceeded the SD-DDS fee schedule. The RO advised us that it
allowed the payments to exceed the SD-DDS CE fee schedule because it believed the
State followed the Administrative Rule. SSA’s RO should monitor SD-DDS payments
for CEs to ensure that payment is in accordance with the fee schedule. The RO should
also work with SD-DDS to update the fee schedule to reflect the amounts authorized by
the South Dakota Administrative Rule.

PAYMENTS FOR NARRATIVE REPORTS

We found that for 27 of the 97 sample CE invoices SD-DDS paid physicians $25 for
preparing narrative reports (CPT code 99080). The remaining 70 CE sample invoices
contained charges for other consultative services. We determined that the physicians
were paid by SD-DDS for the 27 sample CEs for preparing narrative reports which may
have already been paid for as part of the CE costs.

Analysis of the invoices showed that in 11 of the 27 cases with narrative reports, the
physicians charged for performing a consultation and preparing a narrative report. A
consultation is a type of service provided by a physician whose opinion or advice
regarding evaluation and/or management of a specific problem is requested by another
physician or other appropriate source. The consultant’s opinion and any services that
were ordered or performed must be documented in the patient’s medical record and
communicated by written report to the requesting physician or other appropriate source.
We believe that physicians may have been overpaid in all 11 instances because the
CPT code billed already required that a written report be prepared as part of the service
provided. Consequently, the payments for the narrative reports may represent a
second payment for the same service.




Administrative Costs Claimed by the South Dakota DDS (A-15-03-13060)                    4
For the other 16 of the 27 invoices, we determined SD-DDS paid physicians for
preparing a narrative report even though the physicians had not billed for them.
Specifically, the physicians’ invoices did not contain a charge for the narrative report but
the SD-DDS payment voucher reflected a payment for their preparation. We
determined these 16 payments were unsupported costs and should not have been paid.

Because the claim folders were no longer at the SD-DDS, we were unable to have
SD-DDS show us what information was in the physicians’ narrative reports that were
beyond the requirements of a normal consultation report. As a result, we were unable
to confirm the appropriateness of the payments. Our analysis of the FYs 2000 through
2002 CE data file showed there were 3,018 payments for narrative reports valued at
$75,450.

SSA’s Denver RO should:
• work with SD-DDS to analyze the narrative report payments to determine if
  payments were appropriate; and
• instruct SD-DDS to cease paying for unbilled services.

MAXIMUM FEE PAYABLE

The SD-DDS needs to modify its current fee schedule to establish maximum fees
payable for those CPT codes where payment is based on an hourly rate. For example,
CPT codes 96100 and 90830 cover multiple types of mental examinations and
psychological testing. The amount of payment to medical providers for this CPT code is
determined by multiplying the number of hours billed by a fixed hourly rate. We found
14 instances of CEs using CPT codes 96100 and 90830 in our sample of 97 CE
invoices. While the SD-DDS fee schedule set an hourly rate, we found no evidence that
SD-DDS limited the number of hours that could be billed. As a result, there was no limit
to what the physician could charge for each of the psychiatric examination types.
During the audit period, there were 1,968 transactions, valued at $480,495, where
payment was based on an hourly rate.

SSA’s Disability Determination Services Administrators’ Letter No. 501, dated
March 12, 1999, provided DDS administrators with informational guidance as to the use
of CPT codes using hourly rates. Specifically, Attachment 5, General Guidance for
Mental Exams and Psychological Testing, provides an example showing how the DDS
can use the Medicare hourly rate fee, such as CPT code 96100, multiplied by a
pre-determined number of hours to administer each test type, to establish a maximum
fee payable for each test.

We contacted SSA’s Office of Disability (OD) to determine its basis for establishing the
time required to perform the various tests cited in Attachment 5. OD advised us the
time allowed to perform these tests was based on the conventional wisdom of the
workgroup - consisting of SSA and DDS managers - and confirmed the intent was to
assist the DDSs in establishing a maximum fee payable for the various mental
examinations and psychological tests.


Administrative Costs Claimed by the South Dakota DDS (A-15-03-13060)                       5
Our review showed SD-DDS made no attempt to establish a maximum fee payable.
Charges for services rendered under CPT code 96100 were determined by multiplying
the number of hours billed by a fixed hourly rate of $47.30. This was the hourly rate
allowed by both the SD-DDS fee schedule and the State’s Administrative Rule.

We believe the lack of a maximum for hours billed may result in unreasonable payments
for some CEs. SSA’s RO should work with SD-DDS to establish the maximum numbers
of hours allowed for performing psychological tests using SSA’s Administrators Letter
No. 501 as a guide.

INTERNAL CONTROLS
We examined the internal controls to assess whether they safeguarded assets,
improved the efficiency and effectiveness of operations, and ensured reliability and
completeness of financial information.

We believe SD-DDS needs to initiate corrective action to address the following internal
control deficiencies:
• Medical Consultants were working without benefit of a signed contract showing
   terms of employment, rate of pay, and hours to be worked. Medical Consultants
   recorded their scheduled work hours directly onto a monthly timesheet that was
   used for billing purposes.
• The SD-DDS did not maintain inventory lists as required by Federal regulations.7
   The State is responsible for maintaining all property provided by SSA for performing
   the disability determination function. The State is required to perform a periodic
   inventory of SSA distributed equipment. Maintaining such records will facilitate the
   annual inventories and could help to detect any stolen or misplaced equipment.

SD-DDS needs to implement sufficient controls to ensure that: Medical Consultants are
paid only for hours actually worked, individuals with procurement authority are not
making unauthorized purchases, and SSA furnished equipment has not been stolen or
misplaced.

GENERAL CONTROLS
We performed a limited general control review of the physical security and safety of the
SD-DDS and identified several areas where SD-DDS could improve its general controls
by following the SSA Disability Determination Services Security Document. Specifically,
we found circumstances where unauthorized individuals could gain access to the
SD-DDS computer room. As a result, sensitive SSA data were subject to possible
improper disclosure and hardware and software were subject to deliberate or accidental
damage.


7
    20 C.F.R. § 404.1628.


Administrative Costs Claimed by the South Dakota DDS (A-15-03-13060)                      6
We also found that SD-DDS had not held required emergency evacuation drills. We
believe it is prudent to protect employees from harm as much as reasonably possible.

ACCESS TO SSA DATA

We identified several security issues relating to the SD-DDS computer room. The
computer room security weaknesses included a door that was not routinely locked, the
janitorial staff was not supervised by SD-DDS managers, and the computer room was
easily identifiable because the outer door had a glass insert. Also, we did not verify the
existence or operational status of an intrusion detection device for the computer room.

One SD-DDS computer room door opened to non-DDS office space and was kept
unlocked. This door’s alarm was not activated during working hours. Management
indicated the door was kept unlocked because it was to be used as an emergency exit
for the State Department of Labor (DOL) computer staff. The unlocked door gives
unauthorized individuals open access to the SD-DDS computer room’s sensitive data,
hardware, and software.

SSA’s Disability Determination Services Security Document states, “Access to the
computer room should be restricted by management…. The room should be locked at
all times.”8 We analyzed the building layout and determined the emergency exit could
be relocated to non-DDS space and, thus, maintain the security for the computer room.

Also, the SD-DDS office space was cleaned during non-working hours. According to
SD-DDS management, the janitorial supervisor—who was not an SD-DDS employee
and was not authorized access to sensitive SSA data himself—disabled the alarm
system and was to accompany the workers as they cleaned the office.

SSA’s Disability Determination Services Security Document states the office should be
cleaned during work hours.9 If daytime cleaning is not possible, extra care should be
taken to ensure sensitive and Privacy Act related documents (e.g. medical reports and
folders) are kept secure. These SSA guidelines also state that DDS management
should monitor the cleaning of the office space.

Additionally, the primary door to the computer room was not a solid wood core door. It
had glass inserts. Individuals passing by could look in the window and identify the room
as containing computer data, hardware and software. SSA’s Disability Determination




8
  DDS Security Document, Chapter VII Physical Security, Internal Office Security, page 21 dated
July 30, 2001 and the superseding Chapter VII, Physical Security, Internal Office Security, page 36, dated
September 2003.
9
  DDS Security Document, Chapter VII Physical Security, Access Controls, page 22, dated
July 30, 2001 and the superseding Chapter VII, Physical Security, Access Controls, page 38, dated
September 2003.


Administrative Costs Claimed by the South Dakota DDS (A-15-03-13060)                                     7
Services Security Document requires the computer room door be of solid wood core
construction and kept locked at all times.10

Lastly, SSA’s Disability Determination Services Security Document states the walls of
computer rooms should have slab-to-slab construction to prevent unauthorized entry or,
as revised in September 2003, the computer room must be made secure by installing
chain link fences, heavy wire mesh, or motion sensor devices in the space between the
false ceiling and the true ceiling of the facility.11 The walls of the computer room did not
extend beyond the suspended ceiling. Subsequent to our visit, SD-DDS management
indicated to us there was an intrusion detection system installed in the ceiling area to
detect unauthorized access. However, we did not verify the system’s existence or
whether it was operational.

We believe the above physical security weaknesses risk unauthorized disclosure of
sensitive SSA data as well as the loss of system hardware and software.

SD-DDS needs to improve the security of its computer room and its contents and
should follow SSA’s Disability Determination Services Security Document. Following
the Security Document’s guidelines would reduce the risk to sensitive SSA data and
computer hardware/software. In addition, the SSA Denver Regional Security Officer
should verify the existence and operational status of the intrusion alarm system in the
computer room ceiling area.

EMERGENCY EVACUATION DRILLS

SD-DDS had an evacuation plan visibly displayed in the office and emergency
evacuation routes were clearly marked. However, SD-DDS had not conducted the
required emergency evacuation drills.

SSA’s Disability Determination Services Security Document states the evacuation plan
should be prominently posted and evacuation drills conducted twice yearly.12 Even
though SD-DDS was only one of the building’s tenants and may not have been able to
control the frequency of the evacuation drills, we believe it is important to conduct
periodic evacuation drills to reduce the possibility of injury or loss of life in the event of a
physical disaster.

Subsequent to our visit, SD-DDS management stated that an emergency evacuation
drill was held. We did not verify whether the drill was held. We believe the SSA
Regional Security Officer should work with SD-DDS to ensure the conduct of future
emergency evacuation drills.
10
   DDS Security Document, Chapter VII Physical Security, Internal Office Security, pages 20 and
21, dated July 30, 2001 and the superseding Chapter VII, Physical Security, Internal Office Security,
page 36, dated September 2003.
11
   DDS Security Document, Chapter VII Physical Security, Perimeter Office Security, page 20, dated
July 30, 2001 and the superseding Chapter VII, Physical Security, Internal Office Security, page 36, dated
September 2003.
12
   DDS Security Document, Chapter VII, Physical Security, Office Safety, page 37.


Administrative Costs Claimed by the South Dakota DDS (A-15-03-13060)                                     8
                                                  Conclusions and
                                                 Recommendations
Our review of administrative costs disclosed that SD-DDS paid physicians $158,513 in
excess of its fee schedule for performing CEs and had not set limits for hourly rate
procedures. Physicians were also overpaid an additional $75,450 for narrative reports
which described the results of their CEs. We also identified several internal control
deficiencies that need to be corrected. In addition, SD-DDS needs to improve the
physical security of its office space, especially the computer room.

We recommend SSA’s RO:

   1. Work with SD-DHS to determine the validity of the questioned CE costs and seek
      reimbursement of the costs, if appropriate

We recommend SSA instruct SD-DDS to:

   2. Develop a fee schedule that reflects the South Dakota Administrative Rules and
      complies with SSA’s POMS limiting physician reimbursement to the amounts
      shown on its fee schedule.

   3. Cease paying for unbilled services and review the practice of paying for narrative
      reports to ensure such payments are appropriate under SSA’s policies.

   4. Establish maximum numbers of billing hours allowed for performing
      psychological examinations using SSA Administrators Letter No. 501 as
      guidance.

   5. Require medical consultants to sign contracts outlining the terms of their
      employment, rate of pay, and hours to be worked. Also, management needs to
      ensure the validity of the hours reported on the medical consultant timesheets.

   6. Take appropriate steps to improve the internal controls over inventory.

   7. Comply with SSA’s Disability Determination Services Security Document for
      computer room access by: moving the DOL emergency exit to non-SD-DDS
      space and locking the door between DOL and SD-DDS; cleaning the office
      during work hours or in the presence of DDS management; and installing a
      windowless door to the computer room.

We also recommend the Denver Regional Security Officer verify:

   8. SD-DDS has a functioning intrusion detection system for the computer room and
      evacuation drills are performed on a regular basis.


Administrative Costs Claimed by the South Dakota DDS (A-15-03-13060)                    9
SSA COMMENTS
The Denver RO generally agreed with our recommendations. However, in commenting
on recommendations 1 and 2, it stated most of the fees on the schedule were for x-rays,
laboratory studies, etc. performed by hospitals, and suggested we refer to South Dakota
Administrative Rule 67:16:03. In commenting on recommendation 3, the RO stated the
DDS had a $10.70 limit on reports with a CPT code of 99080; however, with a “22”
indicator, the allowable fee increased to $25.00. The RO stated it appears that the “22”
indicator was not considered during our review. See Appendix C for the full text of
SSA’s comments.

STATE AGENCY COMMENTS

SD-DHS agreed with three of the seven recommendations directed toward the DDS; did
not address two recommendations; and disagreed with recommendations 1 and 3.
Specifically, the SD-DHS stated that:

•   During the audit period, SD-DDS reimbursed providers using two different fee
    schedules and the Office of the Inspector General did not consider South Dakota
    Administrative Rule 67:16:03, which authorizes payment for examinations and
    services performed in hospitals based on a percentage of the amount billed.

•   The DDS did not pay more than the vendor billed or more than the billed CPT code
    allowed. The DDS split the amount billed between the exam and CPT code 99080.
    The DDS ceased this practice, now pays CPT code 99080 only when billed, and is
    reviewing the practice of paying for CPT code 99080.

•   Payment for CPT code 90801 was based on a fee equal to $75.60 per unit.
    SD-DHS believes the DDS interpreted and paid for this CPT code correctly.

SD-DHS’ response did not address recommendations 2 and 4. SD-DHS generally
agreed with recommendations 5, 6 and 7. The full text of the SD-DHS’ comments is
included in Appendix D.

OIG RESPONSE

Due to limitations in the data file provided by SD-DDS, we could not substantiate
SD-DHS' comments regarding Administrative Rule 67:16:03. As such, we are revising
recommendation 1 to have SSA's RO determine the validity of the questioned costs and
seek reimbursement of the costs, if appropriate.

With regard to recommendation 3, SD-DHS responded that if the hard vouchers were
checked, the provider billing forms included with the voucher would show a 2-digit
indicator of “22” which would increase the allowable payment to $25.00. We
re-examined the provider billing forms and payment vouchers for CPT code 99080 and


Administrative Costs Claimed by the South Dakota DDS (A-15-03-13060)                  10
determined that 10 of 11 billing forms in our sample did not contain indicator codes even
though SD-DDS staff had added a “22” indicator to the payment vouchers. Further, the
fee schedule did not show an increase in the amount allowed when an indicator code
was applied. In fact, analysis of the electronic CE data file showed the SD-DDS paid
$25.00 for each of the 3,018 narrative reports, but there were no “22” indicators on the
electronic file.

We found no evidence to support SD-DHS’ contention the DDS split the amount billed
between the examination and CPT code 99080. We determined the DDS paid the
maximum amount allowed for each examination plus an additional $25.00 for the
narrative report. For example, a physician billed $243.00 for an office consultation
under CPT code 99245. He was paid $132.50, the maximum amount allowable for CPT
code 99245 per the fee schedule and was paid $25.00 for a narrative report under CPT
code 99080. We continue to believe the DDS is paying for narrative reports already
required as part of the consultative examination, and believe the DDS will confirm this
when it reviews its practices for paying for this CPT code.




Administrative Costs Claimed by the South Dakota DDS (A-15-03-13060)                  11
                                           Appendices




Administrative Costs Claimed by the South Dakota DDS (A-15-03-13060)
                                                                       Appendix A

Acronyms
 Act              Social Security Act
 CE               Consultative Examinations
 C.F.R.           Code of Federal Regulations
 CPT              Current Procedural Terminology
 DDS              Disability Determination Services
 DI               Disability Insurance
 DOL              Department of Labor
 FY               Fiscal Year
 OD               Office of Disability
 OIG              Office of the Inspector General
 POMS             Program Operations Manual System
 SD-DDS           South Dakota Disability Determination Services
 SD-DHS           South Dakota Department of Human Services
 SSA              Social Security Administration
 SSA-4513         State Agency Report of Obligations for SSA Disability Programs
 SSI              Supplemental Security Income
 RO               Regional Office
 Treasury         Department of the Treasury
 U.S.C.           United States Code




Administrative Costs Claimed by the South Dakota DDS (A-15-03-13060)
                                                                       Appendix B

Scope and Methodology
We obtained evidence to evaluate the appropriateness of recorded financial
transactions under the provisions of Office of Management and Budget Circular A-87,
Cost Principles for State, Local and Indian Tribal Governments.

The South Dakota Department of Human Services (SD-DHS) reported $7,938,868 in
administrative costs for South Dakota Disability Determination Services (SD-DDS)
operations for the period October 1, 1999 through September 30, 2002. To meet our
objective, we:

•   reviewed applicable Federal regulations and pertinent parts of SSA’s Program
    Operations Manual System, section DI 39500, DDS Fiscal and Administrative
    Management, and other instructions pertaining to administrative costs incurred by
    SD-DDS and the draw down of SSA funds;

•   interviewed SD-DHS and SD-DDS staff;

•   documented our understanding of the SD-DHS’ and SD-DDS’ systems of internal
    controls over the accounting and reporting of administrative costs;

•   evaluated and tested internal controls regarding accounting and financial reporting
    and cash management activities, as well as the draw down of SSA funds;

•   traced the administrative expenditures SD-DHS reported on its Forms SSA-4513 to
    its accounting records;

•   analyzed SD-DHS’ draw downs of SSA funds and reconciled them with reported
    expenditures;

•   reviewed the South Dakota Department of Legislative Audit’s Single Audit reports
    and related working papers;

•   conducted a physical inventory of computer equipment SSA provided to
    SD-DDS during our audit period;

•   examined, on a limited basis, the physical security and environmental safety of
    SD-DDS;

•   sampled 10 of 28 employees from one pay period to trace through the accounting
    records, agreed the hours worked to the timesheets, and recalculated pay;

•   conducted analysis of consultative examination payments by comparing them to the
    SD-DDS fee schedules and supporting documentation;


Administrative Costs Claimed by the South Dakota DDS (A-15-03-13060)                    B-1
•   recalculated indirect costs and determined whether such costs were computed in
    accordance with the indirect cost agreement; and

•   sampled 50 all other nonpersonnel transactions per year from the 1,019 transactions
    for FY 2000; 938 for FY 2001; and 1,059 for FY 2002 and traced the sampled
    transactions to supporting documentation.

We determined the computerized data used in this report was sufficiently reliable, given
the audit objectives and intended use of the data, and should not lead to incorrect or
unintentional conclusions. Our testing of the data reliability included tracing individual
transactions to the source documents, recalculating totals and other tests we deemed
necessary.

We performed work at the SD-DHS and SD-Department of Legislative Audits in Pierre,
South Dakota and SD-DDS in Sioux Falls, South Dakota. We conducted our audit from
July 2003 through March 2004. Our audit was completed in accordance with generally
accepted government auditing standards.




Administrative Costs Claimed by the South Dakota DDS (A-15-03-13060)                   B-2
                                                                       Appendix C

Agency Comments
SSA provided the following comments on the recommendations.

Recommendation 1: Reimburse SSA $158,513 paid in excess of the SD-DDS and
Administrative Rule fee schedules.

The audit considered South Dakota Administrative Rule 67:16:02 but failed to consider
Rule 67:16:03. This rule covers payment for outpatient services for x-rays and
laboratory procedures. All x-rays, speech evaluations, pulmonary studies, stress tests,
etc. are conducted at hospitals and are paid under Rule 67:16:03. These consultative
examination and procedure fees should be reevaluated to insure that the guides of this
rule are followed also. We expect the State to go into more detail on this subject in their
comments.

Recommendation 2: Develop a fee schedule that reflects the South Dakota
Administrative Rules and complies with SSA’s POMS limiting physician reimbursement
to the amounts shown on its fee schedule.

We concur that the DDS should develop a fee schedule that reflects Rules 67:16:02 and
they should also include Rule 67:16:03. The fee schedule should also comply with
Chapter 20 of the Code of Federal Regulations (CFR) paragraph 404.1624. We have
not stressed the necessity of the DDS budget officer visiting the DDS and Fiscal
Department to discuss CE and MER costs, CE reviews, and other issues. Trips by the
budget officer to discuss budgetary issues will be placed higher on the travel agenda in
future fiscal years.

Recommendation 3: Cease paying for unbilled services and review the practice of
paying for narrative reports to ensure such payments are appropriate under SSA’s
policies and pay SSA $75,450 for overpayment on reports.

The DDS has a $10.70 limit on reports with a current procedural terminology (CPT)
code of 99080 but with a 22 indicator, the fee increases to $25.00. It appears that the
22 indicator was not considered in the review of these exams. The State will provide
more detail on correct charges in this area.

Recommendation 4: Establish maximum numbers of billing hours allowed for
performing psychological examinations using SSA Administrators Letter No. 501 as
guidance.

We concur with this recommendation.




Administrative Costs Claimed by the South Dakota DDS (A-15-03-13060)                    C-1
Recommendation 5: Require medical consultants to sign contracts outlining the terms
of their employment, rate of pay, and hours to be worked. Also, management needs to
ensure the validity of the hours reported on the medical consultant timesheets.

We concur with this recommendation.

Recommendation 6: Take appropriate steps to improve the internal controls over
inventory.

We concur with this recommendation.

Recommendation 7: Comply with SSA’s DDS Security Document for computer room
access by: moving the Department of Labor’s (DOL) emergency exit to non-SD-DDS
space and locking the door between DOL and SD-DDS; cleaning the office during work
hours or in the presence of DDS management; and installing a windowless door to the
computer room.

We concur with this recommendation.

Recommendation 8: The Denver Regional Security Officer should verify that the DDS
has a functioning intrusion detection system for the computer room and evacuation drills
are performed on a regular basis.

We concur with this recommendation.

If you wish to discuss the draft report, please call Bob Carmichael, Budget Officer,
Center for Disability, at (303) 844-4878.




Administrative Costs Claimed by the South Dakota DDS (A-15-03-13060)                   C-2
                                 Appendix D

South Dakota Department of Human Services
Comments
                                               DEPARTMENT OF HUMAN SERVICES
                                               OFFICE OF THE SECRETARY
                                               Hillsview Properties Plaza, East Highway 34
                                               c/o 500 East Capitol
                                               Pierre, South Dakota 57501-5070
                                               Phone: (605) 773-5990
                                               FAX: (605) 773-5483 TTY: (605) 773-5990
                                                 www.state.sd.us/state/dhs




December 8, 2004

Steven L. Schaeffer, Assistant Inspector General for Audit
Social Security Administration
Office of the Inspector General
4-L-l operations Bldg
6401 Security Blvd Baltimore, MD 21235

Dear Mr. Schaeffer:

The attached document is the Department of Human Services response to the Office of Inspector
General (OIG) draft audit report, dated October 7, 2004, for the Administrative Costs Claimed
by the South Dakota Disability Determination Services (A-15-03-13060). The on-site audit of
the SD-DDS was conducted on Ju1y 11, 2003.

The Department of Human Services and Division of Rehabilitation Services / Disability
Determination Services (DHS/SD-DDS) have structured the response as follows:
   • Repeating the content of the CIG draft report
   • Identifying "DHS / SD-DDS Response:" as necessary

As the state department given responsibility for administering the Disability Determination
Services program, the South Dakota Department of Human Services works diligently to assure
program compliance and program integrity in all service delivery. As you will note in our
response to the OIG draft audit report, we have thoroughly addressed each of the draft findings
presented. Several areas have already been remedied and the remaining areas are being addressed
through policy and practice changes. Given this commitment and response to the findings on the
part of DHS / SD- DDS, we respectfully request that the recommendation of $158,513
reimbursement to the Social Security Administration be waived or identified as questionable
costs rather than ‘excess payments' in the final audit report.




Administrative Costs Claimed by the South Dakota DDS (A-15-03-13060)                       D-1
Page 2
December 8, 2004

If you wish to discuss or have any questions, please contact Dan J. Lusk or John T. Hanson, DHS
Office of Budget & Finance at (605) 773-5990.

Sincerely,




Department Secretary

cc:
Dan J. Lusk, Director of DHS Office of Budget and Finance
Grady Kickul, Director of Division of Rehabilitation Services
Dave Tschetter, Manager of Disability Determination Services




Administrative Costs Claimed by the South Dakota DDS (A-15-03-13060)                       D-2
Page 3
December 8, 2004

RESULTS OF REVIEW

CONSULTATIVE EXAMINATION (CE) PAYMENTS:
1) Paid $158,513 for CE fees in excess of its fee schedule.
2) Paid physicians for unbilled services and for preparing narrative reports.
3) Did not limit the amount paid for psychiatric examinations.

DHS I SD-DDS Response:
99080 (Medical Report): OIG states that during the three-year period, $43,304.60 was overpaid
or paid inappropriately to Consultative Exam vendors. The state fee for 99080 is $10.70,
however, with a 22 indicator, the fee increases to $25.00. OIG contests that a report
is considered part of the examination, however, DDS asks for more than a basic report from a
provider. SSA requires that sources provide a statement of functioning along with their findings.
The statement of function (Medical Source Statement) addresses the specific functional ability of
a claimant, i.e., standing, walking, sitting, carrying, lifting, etc. or in the case of a mental
impairment, such items as ability to relate to others, communicate, cognitive ability, etc. If the
hard vouchers were checked, the HCFA forms included with the voucher would show a two digit
indicator of 22. The other contention was that DDS paid the $25.00 fee when the source did not
request it. At no time did the DDS pay more than what the vendor had billed or more than the
billed CPT code allowed. The DDS has split the amount billed between the exam CPT and
99060. The DDS has ceased this practice and pays 99080 only when billed and is reviewing their
practice of paying under 99080.

90801 (Mental Status Exam): These are billed by the unit with the fee equal to $75.60 per unit.
These were paid either to a licensed clinical psychologist or a psychiatrist. The low figure
reflects billing from a Community Mental Health Center and the higher figure from private
practice. The figure stated as overpayment during the three year period was $37,912.41. We feel
that the SD-DDS interpretation and payment of this CPT was performed correctly.

During the time frame of the audit the department was reimbursing providers using two different
fee schedules. If payment was made to a clinic / physician, reimbursement was based upon
Administrative Rule 67: 16:02:03 and Administrative Rule 67: 16:02:03.02. If payment was
made to a hospital, then Administrative Rule 67:16:03:06.01 was applied and this rule states that
reimbursement should be at 100% or 90% of the billed amount. The following is a list of CPT
codes that were reimbursed under 67:16:03:06.01.

MO601: The figures related to this code are based on psychological exams billed by hospitals.
The individuals performing the exams were hospital employees, and payment went to the
hospital and not the individual. The 100% and 90% figures were used depending on whether it
was a regular hospital (Rapid City Regional) or a specialty hospital (Children's Care Hospital
and School). The three year figure on this was $6,057.00.

92506 (Speech Evaluations): Speech evaluations are performed either at a hospital or specialty
hospital. Reimbursement procedures would be the same as MO601. This amounted to $7,575.65.

94010, 94060, 94250, 94260, 94350, and 94720 (All relate to Pulmonary Function Studies):
These procedures are performed at a hospital and reimbursement is at the 90% figure used at the
time of the audit.




Administrative Costs Claimed by the South Dakota DDS (A-15-03-13060)                          D-3
Page 4
December 8, 2004

70000 Codes (X-Rays): There are two different reasons for payment on these items that would
not be reflected in the data OIG used to come to their conclusions. The first is that many of these
procedures were billed from hospitals and paid at the 90% rate. The second reason is that a single
CPT code may include more than one X-ray; this would not be reflected in the spreadsheet data.

78465, 93017, 93018 and 93307 (All relate to a Thallium Stress Test): These procedures are
performed exclusively at a hospital and would have been reimbursed at the 90% fee
figure.
The DDS also utilizes a minimal number of Iowa, North Dakota and Wyoming sources. When
out-of-state sources are used, SD-DDS's reimburses at the fee schedule rate "for that particular
state (POMS 39.545.250).
This is the first opportunity SD-DDS has had to provide additional information regarding the
findings under CE payments. The CE payments were not identified as an area of concern by the
auditors during the on-site exit conference.

INTERNAL CONTROLS:
1) Medical Consultants working without benefit of a signed contract showing terms of
employment, rate of pay, and hours to be worked. Medical Consultants recorded their scheduled
work hours directly onto a monthly timesheet that was used for billing purposes.

DHS / SD-DDS Response:
      We agree. Contracts with all medical consultants have been executed and are in place
      identifying all applicable terms.

2) South Dakota did not maintain inventory lists as required by Federal regulations. The State is
responsible for maintaining all property provided by SSA for performing the disability
determination function. The State is required to perform a periodic inventory of SSA distributed
equipment. Maintaining such records will facilitate the annual inventories and could help to
detect any stolen or misplaced equipment.

DHS / SD-DDS Response:
      It is our understanding that an inventory listing was provided to the auditors while they
      were on-site at the SD-DDS in Sioux Falls. An inventory listing will continue to be
      maintained and an annual physical inventory of all equipment will be performed.

GENERAL CONTROLS FOR PHYSICAL SECURITY AND SAFETY OF THE SD-DDS:
1) Access to SSA Data. Several security issues were identified relating to the SD-DDS computer
room. The computer room security weaknesses included a door that was not routinely locked, the
janitorial staff was not supervised by SD-DDS managers, and the computer room was easily
identifiable because the outer door had a glass insert. Also, we did not verify the existence or
operational status of an intrusion detection device for the computer room.

Additionally, the primary door to the computer room was not a solid wood core door. It had glass
inserts. Individuals passing by could look in. the window and identify the room as containing
computer data, hardware and software. SSA's Disability Determination Services Security




Administrative Costs Claimed by the South Dakota DDS (A-15-03-13060)                           D-4
Page 5
December 8, 2004

Document requires the computer room door be of solid wood core construction and kept locked
at all times.
Lastly, SSA's Disability Determination Services Security Document states the walls of computer
rooms should have slab-to-slab construction to prevent unauthorized entry or, as revised in
September 2003, the computer room must be made secure by installing chain link fences, heavy
wire mesh, or motion sensor devices in the space between the false ceiling and the true ceiling of
the facility. The walls of the computer room did not extend beyond the suspended ceiling.
Subsequent to our visit, SD-DDS management indicated to us there was an intrusion detection
system installed in the ceiling area to detect unauthorized access. However, we did not verify the
system's existence or whether it was operational.

DHS / SD-DDS Response:
      As of November 24, 2004 all existing entrance doors and the computer room door have
      been replaced with solid core wooden doors and metal jams. Non-rising hinge pins and
      peepholes were placed in the doors.

       The issue of slab-to-slab walls was addressed when the DDS relocated to their present
       building location. The Social Security Administration Regional Office gave their
       approval of the space prior to the relocation of the SD-DDS to the current office location.
       Because mechanical, phone, electrical and data lines are above the DDS space, it was
       virtually impossible to rebuild the existing walls slab-to-slab. While remodeling the
       existing walls was not possible, the agency's intrusion devices were upgraded to include
       any movement in all DDS space. The concerns expressed related to the door between the
       two computer rooms was addressed with a contact alarm that will alert SD-DDS
       management staff if the computer room door is opened during work hours. The door is
       part of the agency's night time security system.

       The SD-DDS is part of a building cleaning contract and cleaning is completed after
       normal working hours. The SSA / DDS Program Operations Manual System (POMS)
       states that Clean Desk Policies should be enforced if office cleaning takes place outside
       of normal business hours. The SD-DDS adheres to a Clean Desk Policy as defined in
       POMS and in compliance with the Privacy Act. While the DDS is not a covered entity
       under the Health Insurance Portability and Accountability Act of 1966 (HIPPA), the
       Department of Human Services requires compliance with HIPPA standards in the
       security of individual's protected health information (phi). SD-DDS employees comply
       with both the standards in the POMS and the DHS HIPPA policy. SD-DDS employees
       monitor their own work area and secure all case files located in their office. The security
       officer or designated individual does a walk through of the SD-DDS area at the end of the
       day to assure that all case files are secured. The computer room is cleaned only by agency
       staff and during regular working hours.

2) Emergency Evacuation Drills.
SD-DDS had an evacuation plan visibly displayed in the office and emergency evacuation routes
were clearly marked. However, SD-DDS had not conducted the required emergency evacuation
drills.

SSA's Disability Determination Services Security Document states the evacuation plan should be
prominently posted and evacuation drills conducted twice yearly. Even though SO-DDS was
only one of the building's tenants and may not have been able to control the frequency of the
evacuation drills, we believe it is important to conduct periodic evacuation drills to reduce the
possibility of injury or loss of life in the event of a physical disaster.
Administrative Costs Claimed by the South Dakota DDS (A-15-03-13060)                           D-5
Page 6
December 8, 2004

Subsequent to our visit, SD-DDS management stated that an emergency evacuation drill was
held. We did not verify whether the drill was held. We believe the SSA Regional Security
Officer should work with SD-DDS to ensure the conduct of future emergency evacuation drills.

DHS / SD-DDS Response:
      The SD-DDS will conduct comprehensive security training during the first quarter .of
      calendar year 2005 and this will be reported on our annual security check list.

       The SD-DDS will conduct the required evacuation drills at least twice a year and will
       document the occurrence of such drills.




Administrative Costs Claimed by the South Dakota DDS (A-15-03-13060)                           D-6
                                                                       Appendix E

Sampling Methodology
Our sampling methodology encompassed the four general areas of costs as reported on
Form SSA-4513: (1) Personnel, (2) Medical, (3) Indirect, and (4) All Other Non-
Personnel costs. We obtained computerized data from the South Dakota Disability
Determination Services (SD-DDS) for Fiscal Years (FY) 2000 through 2002 for use in
statistical sampling. After selecting and reviewing randomly selected samples, we did
not identify any errors in the Personnel, Indirect, and All Other Non-Personnel costs
areas that warranted audit findings.

Medical Costs

We selected 150 items (50 items from each FY) using a stratified random sample. We
stratified medical costs into Medical Evidence of Record and Consultative Examinations
and selected more consultative examinations invoices because these costs represented
77 percent of all medical costs. Of the 150 transactions selected, 115 represented
consultative examinations while the remaining 35 were for medical evidence.

Our examination of the documentation provided for the 115 consultative examinations
selected disclosed that 18 transactions were actually payments for Medical Evidence of
Records that had been miscoded by SD-DDS. Therefore, our examination was limited
to the remaining 97 consultative examinations. Findings identified during our sampling
of the consultative examinations were quantified based on a 100 percent review of the
consultative examinations.




Administrative Costs Claimed by the South Dakota DDS (A-15-03-13060)
                                                                          Appendix F

Schedule of Obligations Reported, Questioned,
and Allowed

            South Dakota Disability Determination Services

                    Fiscal Years (FY) 2000–2002 Combined
      COSTS             REPORTED          QUESTIONED                   ALLOWED
Personnel               $3,674,533                 0                   $3,674,533
Medical                 $2,281,362          $233,963                   $2,047,399
Indirect                  $699,391                 0                     $699,391
All Other               $1,283,582                 0                   $1,283,582
Total                   $7,938,868          $233,963                   $7,704,905

                                    FY 2000
      COSTS              REPORTED         QUESTIONED                   ALLOWED
Personnel                $1,158,005               0                    $1,158,005
Medical                    $718,787         $47,238                      $671,549
Indirect                   $251,604               0                      $251,604
All Other                  $355,615               0                      $355,615
Total                    $2,484,011         $47,238                    $2,436,773

                                    FY 2001
      COSTS              REPORTED         QUESTIONED                   ALLOWED
Personnel                $1,210,152               0                    $1,210,152
Medical                    $745,124         $88,154                      $656,970
Indirect                   $216,226               0                      $216,226
All Other                  $336,370               0                      $336,370
Total                    $2,507,872         $88,154                    $2,419,718

                                    FY 2002
      COSTS              REPORTED         QUESTIONED                   ALLOWED
Personnel                $1,306,376               0                    $1,306,376
Medical                    $817,451         $98,571                      $718,880
Indirect                   $231,561               0                      $231,561
All Other                  $591,597               0                      $591,597
Total                    $2,946,985         $98,571                    $2,848,414




Administrative Costs Claimed by the South Dakota DDS (A-15-03-13060)
                                                                       Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts
     Lance Chilcoat, Audit Manager, (410) 965-9743

Staff Acknowledgments
In addition to those named above:

     Frederick Nordhoff, Director

     Richard Wilson, Auditor-in-Charge

     Steven Sachs, Auditor-in-Charge

     Sandra Westfall, Senior Program Analyst

     Ronald Anderson, Auditor

     Ellen Silvela, Auditor

     Wesley Lewis, Senior Auditor

     Brennan Kraje, Statistician

     Annette DeRito, Writer/Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-15-03-13060.




Administrative Costs Claimed by the South Dakota DDS (A-15-03-13060)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
